                     U.S. DEPARTMENT OF THE INTERIOR
                         OFFICE OF INSPECTOR GENERAL

                                       AUDIT REPORT




BUREAU OF INDIAN AFFAIRS
SCHOOL CONSTRUCTION
PLANNING AND DESIGN
PROCESS




                                           Photos Courtesy of BIA




REPORT NO. 2003-I-0070                    SEPTEMBER 2003
C-IN-BIA-0023-2002
This Page Intentionally Left Blank
EXECUTIVE SUMMARY
                              The objective of our audit was to evaluate whether
RESULTS IN BRIEF              BIA’s planning and design process for replacement
Replacement schools are       school construction was effective in providing
planned, designed, and        reasonably sized schools to the Indian communities it
built with excessive space.   serves. We determined that BIA was planning and
                              designing schools with excessive space.

                              To forecast the size of the school facilities to be built,
                              BIA applies its standard space guidelines to the
                              projected future school enrollment. In simple terms, the
                              space guidelines define the amount of square footage
                              that should be planned on a per student basis, based on
                              the highest grade at the school. The projected
                              enrollment is a forecast of the number of students
                              expected to attend the school once construction is
                              complete.

                              Although BIA’s space guidelines were suitable, we
                              concluded BIA’s student enrollment projection process
                              generally produced inflated estimates. This occurred
                              because BIA had not developed or implemented
                              adequate policies and procedures on how to prepare,
                              document, or review enrollment projections. Using
                              inflated enrollment projections to determine school size
                              resulted in building schools that are too large. We
                              estimated that $37 million has been spent to build
                              excess space at schools between 1993 and 1999 and
                              another $74 million may be spent for excess space at
                              schools currently being planned and designed.

                              BIA is taking actions to correct and strengthen its
BIA ACTIONS                   planning and design process. BIA has implemented
                              interim guidelines for calculating enrollment
                              projections for future replacement school construction
                              and has agreed to determine whether these guidelines
                              can be applied to projects currently in the design and
                              planning phase. In addition, BIA agreed to clarify the
                              enrollment projection process and develop, with tribal
                              consultation, specific guidance on how to review and
                              document student enrollment projections.



                                           i
This Page Intentionally Left Blank




                ii
               iii
                                            CONTENTS
                                                                                                                       Page

INTRODUCTION ........................................................................................... 1

         BACKGROUND .................................................................................................... 1

RESULTS OF AUDIT ..................................................................................... 3

         STUDENT ENROLLMENT PROJECTION PROCESS ................................................... 3

         BIA ACTIONS..................................................................................................... 9

         RECOMMENDATIONS .......................................................................................... 10

         BIA RESPONSE AND OIG REPLY........................................................................ 10

ADDITIONAL ISSUE...................................................................................... 13

APPENDICES

         1. CLASSIFICATION OF MONETARY AMOUNTS .................................................                         14
         2. BUREAU OF INDIAN AFFAIRS ORGANIZATION,
             RESPONSIBILITIES, AND RESOURCES .........................................................                   15
         3. ANALYSIS OF PROJECTS COMPLETED DURING 1993 THROUGH 1999...........                                           16
         4. ANALYSIS OF PROJECTS IN THE DESIGN PHASE ............................................                        17
         5. ANALYSIS OF PROJECTS IN THE PLANNING PHASE ......................................                            18
         6. SCOPE AND METHODOLOGY ........................................................................               19
         7. PRIOR AUDIT COVERAGE .............................................................................           21
         8. BIA RESPONSE TO DRAFT AUDIT REPORT ...................................................                       23
         9. STATUS OF RECOMMENDATIONS ..................................................................                 26




                                                              iii
                                                             iv
This Page Intentionally Left Blank




                viv
INTRODUCTION
             This report presents the results of our audit of the
             Bureau of Indian Affairs’ (BIA) planning and design
             process for replacement school construction. Our
             objective was to evaluate whether BIA’s replacement
             school construction program is providing reasonably
             sized schools to the Indian communities it serves. The
             two main variables in determining replacement school
             size are the projected future enrollment of the school
             and the space guidelines that determine the necessary
             square footage for that future student population.

             We did not look at the project prioritization process that
             identifies the replacement schools to be built. The No
             Child Left Behind Act of 2001 (Public Law 107-110)
             requires that new processes be developed and
             implemented for the equitable distribution of
             replacement school construction funds. The Bureau of
             Indian Affairs (BIA) and the General Accounting
             Office each have responsibilities for development and
             implementation of these provisions of this Act. The
             new processes are not yet in place.

             One additional issue is presented in this report. A
             discussion of the potential construction of redundant
             facilities at two high schools being funded by BIA in
             Belcourt, North Dakota, is included at the end of the
             report.

             BIA funds the operation of 187 schools located in 23
BACKGROUND   states. These schools have a combined enrollment of
             approximately 48,000 Indian children and include the
             full range of grades from kindergarten to high school.
             BIA funds day schools, boarding schools, and
             dormitories for children attending public schools.

             BIA has identified a long-standing backlog of schools
             requiring replacement. Many BIA schools were built in
             the 1940s and 1950s and suffer from the effects of age
             and use. In September 2002, BIA reported a backlog of
             deferred maintenance for educational facilities totaling
             approximately $485 million. In December 2002, BIA
             reported a backlog of replacement school construction
             of over $331 million.


                          1
In FY 2002, BIA received applications for replacement
school construction from 70 BIA-funded schools with
enrollments totaling over 20,000 students. The current
administration has recognized the need and responded
with increased funding for Indian Replacement School
Construction. In FY 2003 six Indian schools are
scheduled for replacement at a total cost of about $125
million. The BIA FY 2004 budget request for
Education Construction totals almost $293 million and
includes funding of over $131 million to replace seven
Indian schools.

In March 2000, the Deputy Director, Office of Indian
Education Programs (OIEP) issued limited policy
guidance on enrollment projections. In October 2002,
based on information we provided BIA during the
course of the audit, BIA issued interim guidance on
preparing enrollment projections. We used the interim
guidelines to evaluate enrollment projections for
schools in the planning and design phase. An
explanation of how we calculated enrollment and
associated space is in Appendix 3. Detailed
background information about BIA and OIEP is in
Appendix 2.

For purposes of the audit we identified three stages of
replacement school construction—planning, design, and
construction. The planning phase covers the
preparation of key documents such as the enrollment
projection and the general architectural and engineering
requirements. The design phase includes preparation of
design documents beginning with schematic drawings
and ending with the completion of construction building
plans including the detail necessary to submit the
project for bids. The construction phase includes all
construction work from project site preparation through
all work necessary to pass final inspections and obtain
clearances to occupy the building.




             2
RESULTS OF AUDIT
                        The process of forecasting student enrollment projections for
                        replacement schools was not effective and generally produced
                        inflated estimates. This resulted in construction and planned
                        construction of oversized school facilities. In addition to the
                        extra cost to build these overly large school facilities, there is
                        an ongoing cost to operate and maintain this excess space. We
                        estimate that the enrollment projections being used for schools
                        currently in the planning and design phase would result in
                        excess construction costs of $74 million. Further, about $1.44
                        million in recurring annual operations and maintenance costs
                        would be required for as long as these school facilities are in
                        use. Student enrollment projections were inflated because BIA
                        did not implement adequate guidelines on how to prepare,
                        document, review, or approve them.

                        We found BIA’s space guidelines were reasonable for
                        determining space and facilities needs. We compared BIA’s
                        guidelines to those used by selected states. We found BIA’s
                        guidelines were consistent with the state guidelines and
                        application of the guidelines yielded similar results.

STUDENT                 BIA’s process to forecast future student enrollments was not
ENROLLMENT              adequate. We found that the assumptions and data used in
PROJECTION              enrollment projections were often unsupported and unverified.
PROCESS                 The methodologies used to forecast student enrollments lacked
                        consistency between projects and concerns raised by BIA in
BIA’s student           the review process were not always answered or resolved.
enrollment projection   Additionally, in some cases there was no evidence of formal
process results in      BIA approval of the projections used for construction planning.
inaccurate
projections.            There was no guidance for performing student enrollment
                        projections prior to March 2000. At that time, the Deputy
                        Director, Office of Indian Education Programs (OIEP), issued
                        limited policy guidance on enrollment projections. The
                        guidance identified a standard growth rate to estimate future
                        enrollment until five years after planned construction was
                        completed. But this guidance was generally not implemented
                        and had little effect on the processes used for developing
                        enrollment projections.

                        Even if this guidance had been implemented, it did not address
                        how to prepare, document, or review student enrollment
                        projections and did not require any analysis of assumptions


                                          3
                      used, did not address the issue of including students not
                      already enrolled, and failed to address a formal approval
                      process. BIA generally accepted enrollment projections that
                      lacked supporting documentation for data and assumptions
                      both before and after the issuance of the March 2000 guidance.

Enrollment            Tribes and schools provided student enrollment projections
projections were      using unsupported assumptions and data. BIA often accepted
prepared using        these projections without verifying the assumptions,
unsupported           methodologies used, or data. For example, because BIA did
assumptions           not verify assumptions used in the schools’ enrollment
and data.             projections, two schools were able to use the same
                      circumstances to justify inflated enrollment projections. Two
                      different kindergarten through grade 6 schools’ enrollment
                      projections included an increase in un-enrolled students
                      because of new medical facilities, housing units, and a
                      shopping center being built. The tribe stated that these new
                      facilities would encourage additional families to relocate and
                      enroll their children in the Indian schools. BIA allowed
                      planning to proceed for both schools using the enrollment
                      projections that, in effect, double counted the potential impact
                      of the other new facilities. Although the total actual
                      enrollment of the two schools was only 384, BIA approved
                      enrollment projections for the two replacement schools totaling
                      750 students. Using guidelines that BIA issued in October
                      2002, we recalculated the enrollment projections for the two
                      schools and determined that a reasonable total projection
                      would have been 514 students. The cost of constructing space
                      for an additional 236 students would be about $11 million. We
                      estimated the cost of constructing excess space by multiplying
                      the cost per square foot for each school by the number of
                      calculated excess square feet.

BIA sometimes         In another example, BIA approved an enrollment projection
accepted enrollment   without examining the supporting data. BIA approved a
projections without   forecast of 750 students for a kindergarten through grade 12
examining the         school, even though the actual enrollment during that current
supporting data.      school year was only 216 students. The projection included
                      351 students extrapolated from the currently enrolled students
                      using an unsupported methodology plus 401 additional
                      students identified from the enrollments of public schools in
                      the surrounding area.

                      To support the inclusion of the un-enrolled students, the tribe
                      collected 162 affidavits signed and dated by the children’s
                      parents attesting to their tribal membership and the number and



                                        4
                        ages of their children who would be attending the school when
                        completed. Although BIA officials expressed doubts regarding
                        children’s willingness to transfer if they were already
                        performing well in a public school, both OIEP and the Office
                        of Facilities Maintenance and Construction (OFMC) approved
                        the enrollment projection of 750 students. Neither
                        organization examined supporting documentation for the
                        affidavits or performed any independent verification of the
                        data supplied by the tribe. At our request, the tribe provided
                        information concerning a sample of 72 children included in the
                        affidavits. Our analysis identified questions about the
                        reliability of the data for 24 children (33 percent of our
                        selected sample).

                        The tribe:

                           •   Was unable to identify the names of 8 of the children or
                               the birth-dates of 13 of the children.

                           •   Could not verify the tribal enrollment of 5 of the
                               children.

                           •   Identified 10 of the children as enrolled by other tribes
                               but did not verify that enrollment.

                           •   Counted the same 3 children twice under different
                               parents.

                           •   Included children in the enrollment projection from less
                               than 1 year in age through 17 years in age for a
                               kindergarten through grade 12 school. This has the
                               effect of inflating the enrollment projection because it
                               counts both children too young to be in school
                               currently and children who will have completed grade
                               12 by the time the replacement school construction is
                               completed.

                        We estimate the enrollment projection was inflated by 437
                        students and the resulting excess school facilities would cost
                        almost $15 million.

Methodologies used to   BIA did not ensure that all enrollment projections used the
forecast future         same methodology to forecast future student population. To
student populations     predict future student population sizes, tribes and/or schools
were not consistent.    multiplied a growth factor (the March 2000 guidelines
                        specified 2.5 percent) against a baseline enrollment figure.


                                          5
                       Some schools projected future enrollment by applying the
                       growth factor to all enrolled students; some applied it to only
                       eligible enrolled students. Also, BIA allowed tribes and
                       schools to apply widely varying growth rates. For the projects
                       we reviewed, growth rates applied varied from 2.5 percent to
                       around 8 percent. In addition to the inconsistent growth rates,
                       BIA allowed several other growth adjustments to be included
                       in the enrollment projections we reviewed.

BIA’s review and       BIA did not have an effective review or approval process for
approval process was   student enrollment projections. Although we discovered that
not effective.         BIA officials often questioned inflated enrollment projections,
                       the projections were still used for planning and budgeting
                       purposes. They continued to use these projections even though
                       the projections were never formally approved. A kindergarten
                       through grade 9 school submitted an enrollment projection for
                       260 students when the actual enrollment was 125. BIA
                       questioned the enrollment projection, which included 40
                       students for a pre-kindergarten program that was only
                       approved for 18 students. However, the original projection
                       was still used to determine the funding for the replacement
                       school construction. There was no evidence that BIA obtained
                       or reviewed any supporting documentation for the projection.
                       Further, BIA could not provide any evidence of its formal
                       approval or disapproval of the projection. We recalculated the
                       enrollment projection using the October 2002 guidelines and
                       added 34 students for the pre-kindergarten program and
                       reintegration of grade 9. We estimate the appropriate
                       enrollment projection for the school would have totaled 202
                       students. The cost of constructing space for an additional 58
                       students would be approximately $3.6 million.

                       According to BIA officials, final projected student enrollment
                       figures were generally derived through informal negotiations
                       between BIA and the tribes. These negotiations and the
                       decisions made in arriving at the final student enrollment
                       projections were usually not documented. Additionally, it is
                       unclear as to which organization within the BIA should be
                       reviewing and approving enrollment projections for
                       replacement school construction. Both the OIEP and the
                       OFMC have responsibilities in this area. We have been unable
                       to identify any assigned responsibility for reviewing and
                       approving enrollment projections. Since the enrollment
                       projection is a key element in determining where replacement
                       school construction dollars are invested, the process should be
                       clearly defined and not ambiguous. Outside observers should



                                         6
                               be able to understand the logic used to create, evaluate, and
                               approve the enrollment projections.

Using inflated                 To determine the effect of using inflated enrollment
enrollment                     projections we analyzed the projections and the actual student
projections to design          populations for replacement schools completed between 1993
replacement schools            and 1999. During the 2002 – 2003 school year, six of the
results in excess space        seven schools had fewer students than had been projected. In
and costs.                     fact, the actual enrollment at these schools was 53 percent
                               lower than the enrollment projections1. The cost of the excess
                               space resulting from the inflated enrollment projections was
                               approximately $37 million2. Had more accurate enrollment
                               projections been used, the $37 million might have been
                               available to replace two additional small schools – for
                               example, a kindergarten through grade 6 school for 390
                               students currently in the design phase is estimated to cost
                               approximately $15 million. The following chart summarizes
                               our review of completed replacement school construction
                               projects:

                                        Summary of Replacement School Construction
                                          Projects Where Construction is Complete
                                                                               Estimated
                                                                                Annual
                                                                              Operations
                                                   Estimated    Estimated         and
                                                      Total      Cost to     Maintenance
                                                     Square     Construct      Costs for
                                                     Feet of     Excess          Excess
                                   Total Number      Excess     Capacity       Capacity
                                    of Projects     Capacity (In Millions) (In Millions)

                                         7               226,000            $37               $.91
                                  (see Appendix 3)


                               BIA has agreed with our conclusion that the enrollment
                               projections are inflated and stated that the current practice of

1
 The student enrollment projections for these completed projects were not approved by BIA, but rather
were approved by the DOI Office of Construction Management (OCM). OCM was discontinued on
September 30, 1997 and BIA assumed responsibility for student enrollment projections.
2
 For completed projects we identified actual excess square footage by comparing enrollment projections to
actual student counts from school year 2002-2003. We determined the cost of excess square footage by
multiplying the cost per square foot for the specific school by the number of excess square feet. Exact
steps used in the calculations are in Appendix 3. For projects in the planning and design phases we
identified potential excess square footage by recalculating the enrollment projections using BIA’s October
2002 interim enrollment projection guidelines.


                                                    7
projecting enrollment five years beyond the construction
completion date and the use of inflated or unrealistic annual
rates of enrollment growth are, for the most part, responsible
for the excess capacity. Our review also indicated that the
inclusion of un-enrolled students in the enrollment projection
resulted in excess capacity.

Using the October 2002 interim guidelines, we evaluated the
enrollment projections for schools in the design and planning
phases. For schools in the design phase we found that 9 of 10
schools would have excess capacity. The following chart
summarizes our review of replacement school construction
projects in the design phase:

        Summary of Replacement School Construction
                 Projects in Design Phase
                                              Estimated
                                                Annual
                                              Operations
                    Estimated     Estimated       and
                      Total        Cost to   Maintenance
                     Square       Construct    Costs for
                     Feet of        Excess      Excess
   Total Number      Excess       Capacity     Capacity
    of Projects     Capacity (In Millions) (In Millions)

         10             232,000        $47            $.93
  (see Appendix 4)


We looked at the enrollment projections for all schools in the
planning phase using the enrollment projections from data used
for BIA budget justifications. While these projections were
preliminary, they were generally the basis for funding requests
and often were the basis for a project’s final funding level. We
computed enrollment projections using the October 2002
interim guidelines and found that the estimates were overstated
and would result in excess capacity. The following chart
summarizes our review of replacement school construction
projects in the planning phase:




                  8
                                Summary of Replacement School Construction
                                         Projects in Planning Phase
                                                                      Estimated
                                                                       Annual
                                                                     Operations
                                            Estimated      Estimated     and
                                               Total        Cost to  Maintenance
                                              Square       Construct  Costs for
                                              Feet of       Excess      Excess
                            Total Number      Excess       Capacity   Capacity
                             of Projects     Capacity (In Millions) (In Millions)

                                 11              127,000         $27            $.51
                          (see Appendix 5)

                        We believe the October 2002 guidelines provide a reasonable
                        starting point for projecting student enrollments. However, the
                        new guidance still lacks procedures for review of supporting
                        documentation, analysis of assumptions and for approving
                        exceptions and did not address a formal approval process.

BIA ACTIONS             Based on Notices of Tentative Findings and Recommendations
                        issued by the Office of Inspector General (OIG) in September
BIA is taking actions   2002, BIA issued interim guidance in October 2002. This
to adjust student       guidance addressed how to account for un-enrolled students,
enrollment              and sets the growth rate for developing the enrollment
projections where       projection at 2.5 percent annually, projected to the year of
cost effective and to   construction completion. BIA stated that the new guidelines
improve the student     would be applied to projects in the planning phase that did not
enrollment projection   have approved planning documents. Further, based on
process.                findings from the OIG, BIA agreed to look at enrollment
                        projections for all projects in the planning and design phase
                        and determine whether it is legally and economically feasible
                        to apply the interim guidance to any of these schools. BIA has
                        also agreed to assign responsibility for the formal approval of
                        enrollment projections, develop a process to review and
                        document enrollment projections, and establish procedures for
                        processing exceptions to the guidelines.

                        Subsequent to the completion of our audit fieldwork, we had
                        discussions with BIA officials and identified three additional
                        issues to be clarified in the new enrollment projection
                        guidance. First, BIA needs to clearly define what will
                        constitute the planning date, which is used as the initial starting
                        point from which enrollment projections are made. This date
                        has a significant impact on the calculation of enrollment
                        projections. Second, BIA needs to clearly define what



                                          9
                   constitutes increasing, decreasing, and irregular student
                   enrollment trends. The identified enrollment trend determines
                   the enrollment count used as the baseline for the growth rate
                   calculation. If the trend is increasing the most current student
                   count is the starting point. If the trend is decreasing or
                   irregular the average student count over the most recent five-
                   year period is used. Lastly, BIA needs to clearly define how to
                   estimate the construction completion year. This date is used as
                   the ending point for the growth calculation within the
                   enrollment projection process. BIA is working to identify the
                   needed definitions.

RECOMMENDATIONS       We recommend that the Assistant Secretary for Indian
                      Affairs:

                         1. Where legally and economically feasible, recalculate
                            the existing enrollment projections for all schools in
                            the planning and design phase using the October
                            2002 interim guidelines and incorporate the results
                            into project designs.

                         2. Assign responsibility to OIEP or OFMC or another
                            appropriate office for the formal approval of all
                            enrollment projections.

                         3. Implement procedures requiring BIA personnel to
                            obtain and verify the data and methodology that is
                            used in enrollment projection calculations and to
                            document the results of the review.

                         4. Require justification, verified supporting
                            documentation, and approval by the appropriate
                            official for any exception to the enrollment
                            projection guidelines.

                         5. Clarify the definitions for the planning date and the
                            construction completion date to be used in
                            calculating enrollment projections.

                         6. Clarify the definition of the types of enrollment
                            trends used for setting the baseline for the growth
                            calculation for future enrollment.

BIA RESPONSE AND      In the August 21, 2003 response (Appendix 8) to the draft
OIG REPLY             report, the Acting Assistant Secretary – Indian Affairs
                      concurred with all of the report’s recommendations.



                                    10
BIA stated that it could not provide definite target
implementation dates at this time because the consultation
and negotiated rulemaking processes and the
implementation of the BIA reorganization are just
beginning. Based on the BIA response, we have requested
additional information on actions which will be taken to
implement Recommendations 1, 2, 3, 4, 5, and 6 as detailed
in Appendix 9.




             11
This Page Intentionally Left Blank




               12
ADDITIONAL ISSUE
          During the course of our audit, an additional issue came to
          our attention that we communicated to the management of
          BIA for corrective action.

          Redundant High School Facilities Planned at the Ojibwa
          Indian School

          On September 9, 2002 OIG issued a Notice of Tentative
          Finding and Recommendation addressing the BIA approval
          of replacement construction for both the Ojibwa Indian
          School and the Turtle Mountain High School in Belcourt,
          North Dakota. The new Ojibwa Indian School will be
          expanded to include high school grades. When completed
          the two new high schools will be approximately four miles
          apart and will serve a student population currently served by
          the Turtle Mountain High School and other public schools
          in the area. The approval to replace the Ojibwa Indian
          kindergarten through grade 8 school with a facility
          including grades kindergarten through grade 12 will likely
          result in the construction of redundant high school facilities.

          BIA’s current justification for building high school facilities
          at the Ojibwa Indian School is to reduce overcrowding at
          the Turtle Mountain High School whose construction is
          estimated to be two years behind that of the Ojibwa Indian
          School. Although we recognize the need to resolve the
          overcrowding issue as soon as possible, we question the
          need for a second set of permanent high school facilities.

          We suggest BIA reconsider the plan to construct two sets of
          full high school facilities within a four-mile radius.




                        13
                                                                  Appendix 1

           CLASSIFICATION OF MONETARY AMOUNTS


                                              Funds To Be Put to Better Use
                 Finding Area                    (In Millions of Dollars)

Projects in the Design Phase:

    Estimated cost of excess square feet                $47.24
    Estimated additional annual operations                 .93
         and maintenance costs.

Projects in the Planning Phase:

    Estimated cost of excess square feet.                27.24
    Estimated additional annual operations                 .51
     and maintenance costs.

Total cost of excess square feet.                         74.48
Total additional annual operations and                     1.44
 maintenance costs




                                         14
                                                                               Appendix 2


         BUREAU OF INDIAN AFFAIRS
ORGANIZATION, RESPONSIBILITIES, AND RESOURCES
For the period covered by our audit, the Bureau of Indian Affairs had two service
components reporting to the Assistant Secretary for Indian Affairs: the Office of Indian
Programs (OIP) managed by the Deputy Commissioner, Indian Affairs and the Office of
Indian Education Programs managed by the Director, Office of Indian Education
Programs (OIEP).

The Deputy Commissioner is responsible for all areas of operations except for education
programs. These operations include regional, agency, and various other field offices
including the Office of Facilities Management and Construction (OFMC). OFMC is
located in Albuquerque and is responsible for new construction, primarily of replacement
schools, and the renovation and maintenance of BIA-funded facilities. In FY 2002
OFMC received about $293 million for education construction, which included about
$128 million for replacement school construction. BIA-funded educational facilities
include over 2,100 buildings.

OIEP is headed by a Director who is responsible for the support of 187 schools with an
enrollment of about 48,000 students. These 187 schools include 119 day schools, 54
boarding schools, and 14 dormitories that house Indian children who attend public
schools. BIA’s schools are operated by either BIA or tribal organizations pursuant to
grants or contracts from BIA. During the 2001—2002 school year, BIA operated 68
schools and 1 dormitory and tribes or tribal organizations operated the remaining 105
schools and 13 dormitories through grants and contracts with BIA. The Tribally
Controlled Schools Act of 1988 (Public Law 100-297) authorizes the award of grants to
tribally controlled schools and the Indian Self Determination Act (Public Law 93-638)
authorizes the award of contracts to tribes and tribal organizations for the operation of
DOI programs for Indians. In FY 2002 OIEP received about $720 million including
$559 million in BIA appropriated funds to support the operations of its schools.




                                            15
                                             ANALYSIS OF PROJECTS COMPLETED DURING 1993 THROUGH 1999
                                         COMPARISON OF ENROLLMENT PROJECTIONS AND CURRENT ENROLLMENTS



                 1                2            3            4            5             6           7            8               9         10         11            12                13
                                                                                                                                                                                  Estimated
                                                                                                                                                                                  Additional
                                                                                                                                                              Estimated Cost      O&M Cost
                                Project                 School Year   Excess         Excess    Estimated      Estimated      Cost Per   Square     Excess        of Excess      $4 Per Square
                                                                                                                                                                                          1
                              Completion   Enrollment    2002-2003    Student       Capacity    Project      Total Cost      Square     Feet Per   Square      Square Feet         Foot
           School Name           Date      Projection   Enrollment    Capacity     Percentage Square Feet   (Thousands)       Foot      Student     Feet       (Thousands)      (Thousands)


      Tucker Day School         Aug-94         310          100              210     67.74         49,766           $6,883    $138        161       33,810            $4,666              $135
      Standing Pine Day         Oct-95         189           76              113     59.79         40,024            7,267    $182        212       23,956              4,360                 96
      Shoshone Bannock          Oct-96         310          136              174     56.13         55,646           11,926    $214        180       31,320              6,702                 125
      Chief Leschi School       Nov-96       1,057          497              560     52.98        181,346           26,983    $149        172       96,320            14,351                  385
      Pinon Community           Jun-96         425          290              135     31.76        117,810           19,732    $167        277       37,395              6,245                 150
      Tiospaye Topa School2     Nov-97         238          221               17      7.14         51,482           10,478    $204        216        3,672               749                   15
      Rock Point Community      May-95         285          427                0      0.00         60,790           11,012    $181        213             0                0                   0
16




                                                                         1,209                    556,864        $94,281                           226,473           $37,073              $906


                                                                      Column                                                 Column     Column     Column           Column            Column
                                                                       3-4                                                    8÷7        7÷3        5 × 10           9 × 11            11 × $4




 1
 Operations and Maintenance Cost Comparison Study conducted in FY 1999 by Applied Mechanical Engineering for the
 Office of Facilities Management and Construction. BIA requested $5.97 per square foot and received $4.01 per square foot.




                                                                                                                                                                                               Appendix 3
 2
     Formally Eastern Cheyenne River.
                                         ANALYSIS OF PROJECTS IN THE DESIGN PHASE
               COMPARISON OF ACTUAL ENROLLMENT PROJECTIONS AND PROJECTIONS BASED ON OCTOBER 2002 GUIDELINES



                 1               2             3             4            5             6             7              8               9         10         11           12                13
                                                                                                                                                                                      Estimated
                                                                                                                                                                                      Additional
                                                         Enrollment                                                                                               Estimated Cost      O&M Cost
                            Estimated                     Based on   Excess           Excess       Estimated       Estimated      Cost Per   Square     Excess       of Excess      $4 Per Square
                                                                                                                                                                                              1
                           Project Start   Enrollment   October 2002 Student         Capacity       Project       Total Cost      Square     Feet Per   Square     Square Feet         Foot
          School Name          Date        Projection    Guidelines Capacity        Percentage    Square Feet    (Thousands)       Foot      Student     Feet      (Thousands)      (Thousands)


     Lummi Tribal             Mar-03           750           313              437      139.62         126,972         $25,560      $201        169       73,853          $14,844              $295
     Polacca Day              Feb-03           400           224              176       78.57           74,300           17,460    $235        186       32,736             7,693                  131
     Pascal Sherman            Jul-03          260           202               58       28.71           75,824           16,150    $213        292       16,936             3,607                     68
     Ojibwa Indian2           Feb-03           750           550              200       36.36         126,000            22,800    $181        168       33,600             6,082                  134
     Second Mesa Day          Mar-03           350           290               60       20.69           70,312           19,770    $281        201       12,060             3,389                     48
17




     Santa Fe Indian3         Nov-02           700           591              109       18.44         145,412            25,089    $173        208       22,672             3,922                      91
     Wingate Elementary       Dec-02           845           769               76        9.88         160,409            23,077    $144        190       14,440             2,079                     58
     Tuba City Boarding       Mar-03         1,400         1,245              155       12.45         174,860            40,412    $231        125       19,375             4,476                     78
     Baca/Thoreau             Sep-02           390           360               30        8.33           78,551           14,969    $191        201        6,030             1,152                     24
     Tiopsa Zina Tribal       Nov-02           532           563              N/A           N/A           N/A              N/A      N/A        N/A          N/A              N/A                   N/A
                                                                          1,301                      1,032,640       $205,287                           231,702          $47,244              $927


                                                                       Column                                                     Column     Column     Column          Column            Column
                                                                        3-4                                                        8÷7        7÷3        5 × 10          9 × 11            11 × $4




 1
 Operations and Maintenance Cost Comparison Study conducted in FY 1999 by Applied Mechanical Engineering for the
 Office of Facilities Management and Construction. BIA requested $5.97 per square foot and received $4.01 per square foot.
 2
 The Bureau changed the enrollment projection from 750 students to 550 students and lowered the cost to $22.8 million.
 3
 Santa Fe Indian Cost is based on education facilities only, total project cost is $49,000,000.




                                                                                                                                                                                                  Appendix 4
                                        ANALYSIS OF PROJECTS IN THE PLANNING PHASE
               COMPARISON OF ACTUAL ENROLLMENT PROJECTIONS AND PROJECTIONS BASED ON OCTOBER 2002 GUIDELINES



                   1            2             3            4            5             6           7             8               9         10         11           12                13
                                                                   Excess
                                                                   Student                                                                                                       Estimated
                                                                   Capacity                                                                                                      Additional
                             Estimated                 Enrollment Based on                                                                                   Estimated Cost      O&M Cost
                              Project                   Based on   October          Excess    Estimated       Estimated      Cost Per   Square     Excess       of Excess      $4 Per Square
                                                                                                                                                                                         1
                            Completion   Enrollment   October 2002  2002           Capacity    Project       Total Cost      Square     Feet Per   Square     Square Feet         Foot
          School Name          Date      Projection    Guidelines Guidance        Percentage Square Feet    (Thousands)       Foot      Student     Feet      (Thousands)      (Thousands)


     Enemy Swim               Sep-05         164           111               53       47.75       34,400            $8,011    $233        210       11,130           $2,593                  $45
     Kayenta                  Nov-04         748           546              202       37.00      112,335            25,526    $227        150       30,300             6,878                 121
     Turtle Mountain H.S.     Sep-05         800           607              193       31.80      131,200            36,370    $277        164       31,652             8,768                 127
     Navajo Prep.             Sep-05         300           228               72       31.58       71,814            12,805    $178        239       17,208             3,063                  69
     Isleta Elementary        Aug-05         333           281               52       18.51       59,560            11,715    $197        179        9,308             1,834                  37
18




     Wide Ruins               Jun-04         273           234               39       16.67       52,962            10,187    $192        194        7,566             1,453                  30
     St. Francis              Oct-02         784           693               91       13.13      131,712            14,100    $107        168       15,288             1,636                  61
     Low Mountain             Mar-05         313           286               27        9.44       55,290            11,699    $212        177        4,779             1,013                  19
     Mescalero2               Sep-04         608           608              N/A           N/A         N/A             N/A      N/A        N/A          N/A              N/A                  N/A
     Wingate High School      Sep-05         800           808              N/A           N/A         N/A             N/A      N/A        N/A          N/A              N/A                  N/A
     Bread Springs            Sep-05         153           152              N/A           N/A         N/A             N/A      N/A        N/A          N/A              N/A                  N/A
                                                                            729                  649,273        $130,413                           127,231          $27,238              $509


                                                                     Column                                                  Column     Column     Column          Column            Column
                                                                      3-4                                                     8÷7        7÷3        5 × 10          9 × 11            11 × $4




 1
 Operations and Maintenance Cost Comparison Study conducted in FY 1999 by Applied Mechanical Engineering for the
 Office of Facilities Management and Construction. BIA requested $5.97 per square foot and received $4.01 per square foot.




                                                                                                                                                                                               Appendix 5
 2
  The Mescalero School was built by the tribe for 1,600 students, the BIA Office of Facilities Management and Construction disagreed with the tribe’s enrollment projection and
 concluded that the school should have been built for 608 students.
                                                                               Appendix 6


                     SCOPE AND METHODOLOGY
The audit was conducted at the Office of Indian Education Programs (OIEP) and the
Office of Facilities Management and Construction (OFMC) and included interviews with
BIA management, project managers, and education line officers. We also contacted
selected states, architectural and engineering (A&E) firms, and tribes for additional
information pertaining to enrollment projections. We looked at other methodologies for
enrollment projections and did some comparative analyses. We reviewed documentation
available at OFMC pertaining to project planning, costs, facilities, and square footage. In
addition, we reviewed all available documentation related to enrollment projections at
OFMC and we interviewed all associated OFMC project managers. We did not perform
site visits because we accepted BIA’s determination concerning the need for replacement
school construction.

To evaluate enrollment projections we reviewed 28 replacement school construction
projects. This included all 7 projects completed between January 1993 and December
1999 and all 11 projects in the planning phase and all 10 projects in the design phase at
the time of our review. The amount of project documentation available and reviewed
varied greatly depending on whether the project was completed or in the planning or
design phase.

The following project information and procedures were used to calculate inflated student
enrollment and quantify its cost:

   •   For completed projects we evaluated information including the approved student
       enrollment projection and project data on actual student enrollment, cost, and
       square footage. We calculated the excess student capacity by determining the
       difference between the student enrollment projection and the actual student
       enrollment for school year 2002—2003.

   •   For projects in the planning phase we relied mainly on budget documents
       including BIA’s submission of the Office of Management and Budget (OMB)
       Exhibit 300 form, “Capital Asset Plan” and budget justifications to gather project
       information related to enrollment projections and estimated project cost and
       square footage. We computed enrollment projections using the October 2002
       guidelines and calculated the difference between this figure and the student
       enrollment projection being used in the project design.

   •   Projects in the design phase had varying degrees of documentation supporting
       enrollment projections. The level of documentation depended on what the
       individual project manager required and what documentation the tribe or it’s A&E
       firm was required to provide. Design project documentation reviewed included
       education specifications, programs of requirements, budget justifications,


                                           19
       approval letters, and available support for enrollment projections. As with
       projects in the planning phase, we computed enrollment projections using the
       October 2002 guidelines and calculated the difference between this calculation
       and the student enrollment projection being used in the project design.

Concerning space guidelines we looked at the procedures utilized by the states of North
Dakota, Minnesota, Washington, and Arizona to evaluate the reasonableness of
guidelines used by BIA.

We performed our audit work from April 2002 to March 2003. We conducted our audit
in accordance with the Government Auditing Standards issued by the Comptroller
General of the United States. Accordingly, we included such tests of records and other
auditing procedures that are considered necessary under the circumstances.




                                          20
                                                                                 Appendix 7


                        PRIOR AUDIT COVERAGE
The General Accounting Office (GAO) issued one report and the Office of Inspector
General (OIG) issued two reports in the past five years that directly relate to issues of
Indian school construction as follows:

•   In September 2001, GAO issued the report titled BIA AND DOD SCHOOLS, Student
    Achievement and Other Characteristics often Differ from Public Schools. The key
    issues in the report related to school construction were:

       ¾ BIA school buildings, features, and workspaces were reported to be less than
         adequate to a greater extent than Department of Defense and public schools.

       ¾ BIA reports needing more than $960 million to address educational facilities
         deficiencies.

       ¾ BIA funding for maintenance and repair is less than national guidelines.

       ¾ Estimated expenditures per pupil for BIA schools are higher than public
         schools and vary substantially between categories of schools. However, a
         higher proportion of BIA students have special needs and BIA schools support
         a broader infrastructure than most public schools.

    GAO made no recommendations in the report.

•   In March 2001, the OIG issued the report titled Construction Costs for Chief Leschi
    School Puyallup Tribe, Puyallup, Washington, Bureau of Indian Affairs. The key
    issues in the report related to school construction were that the Office of Facilities
    Management and Construction (OFMC) did not:

       ¾ Sufficiently monitor construction planning to identify variances between the
         Program of Requirements (POR) prepared for the school and the construction
         design specifications.

       ¾ Remove the old Chief Leschi School buildings from the database used to track
         buildings eligible to receive BIA operation and maintenance funds.

    The report made two recommendations: The OIG recommended that appropriate
    BIA officials (1) Monitor construction planning to ensure that the design
    specifications of schools comply with the POR, (2) Make a final determination on the
    allowability of the $785,310 erroneously paid for operations and maintenance for FYs
    1997 through 2000 and recover the amounts determined to be unallowable. BIA
    concurred with both recommendations.


                                              21
•   In March 1999, the OIG issued the report titled Bureau of Indian Affairs Funds
    Provided to the Lac Courte Oreilles Ojibwe School for the Construction of School
    Facilities and Leasing of Temporary Space. Although the school students were
    housed in safe and secure facilities, the key issues in the report related to school
    construction were:

       ¾ School officials did not comply with the intended purpose of the grants to
         construct a facility to replace unsafe portable classrooms or to lease temporary
         school space to house displaced students.

       ¾ That the Bureau had not adequately monitored the use of the grant funds to
         ensure that the funds were used only for design and construction of a 17,359
         square foot facility and for leasing temporary space.

    The final report contained four recommendations. BIA generally agreed with the
    findings and the intent of the recommendations, but did not express concurrence or
    non-concurrence with the report. The findings were considered unresolved when the
    final report was issued.




                                             22
23
24
25
                                                                    Appendix 9



                  STATUS OF RECOMMENDATIONS


Finding/Recommendation
    Reference                Status                     Action Requested

1, 2, 3, 4, 5, and 6     Management concurs;      Please provide an action plan
                         additional information   for implementing the
                         requested.               recommendations. In addition,
                                                  please keep us informed of the
                                                  progress on the review of
                                                  enrollment projections for
                                                  schools currently in the
                                                  planning and design phases as
                                                  well as the implementation of
                                                  policies and procedures to
                                                  comply with recommendations
                                                  2, 3, 4, 5, and 6.




                                  26
                            How to Report
                Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone — Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:         U.S. Department of the Interior
                           Office of Inspector General
                           Mail Stop 5341-MIB
                           1849 C Street, NW
                           Washington, DC 20240
             Phone:        24-Hour Toll Free                 800-424-5081
                           Washington Metro Area             202-208-5300
                           Hearing Impaired (TTY)            202-208-2420
                           Fax                               202-208-6081
                           Caribbean Field Office            340-774-8300
                           Hawaiian Field Office             808-525-5310

             Internet:     www.oig.doi.gov/hotline_form.html




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
